            EVALUATION OF OSHA’S
       HANDLING OF IMMIGRANT FATALITIES
              IN THE WORKPLACE




OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION
__________________________________________




                           REPORT NO.: 21-03-023-10-001
                           DATE: September 30, 2003
                                              TABLE OF CONTENTS


ABBREVIATIONS AND ACRONYMS .................................................................................... ii

EXECUTIVE SUMMARY..........................................................................................................iii

BACKGROUND............................................................................................................................ 1

PURPOSE, SCOPE AND METHODOLOGY ........................................................................... 3

RESULTS....................................................................................................................................... 5

           How Does OSHA Examine Immigrant Workplace Deaths? ........................................ 5

           What Resources Does OSHA Allocate to Investigating Immigrant Deaths? .............. 8

           What Resources Does OSHA Use To Enforce Violations of Workplace Rules
           in Industries that Primarily Employ Immigrants? ...................................................... 12

           How Can OSHA Prevent More Immigrant Workplace Deaths from
           Occurring? ....................................................................................................................... 15

RECOMMENDATIONS ............................................................................................................ 22

GLOSSARY................................................................................................................................. 28

APPENDIX – Agency Response ................................................................................................ 29




                                                                 i
          ABBREVIATIONS AND ACRONYMS


AFL-CIO    American Federation of Labor-Congress of Industrial
           Organizations

ALJ        Administrative Law Judge

BLS        Bureau of Labor Statistics

BOI        Bureau of Investigations

CSHO       Compliance Safety and Health Officer

CY         Calendar Year

DOL        Department of Labor

ETA        Employment and Training Administration

FY         Fiscal Year

FTE        Full Time Equivalents

LEP        Local Emphasis Program

NYCOSH     New York Committee for Occupational Safety and Health

OIG        Office of Inspector General

OSH Act    Occupational Safety and Health Act of 1970

OSHA       Occupational Safety and Health Administration




                                 ii
                            EXECUTIVE SUMMARY


INTRODUCTION

At the request of Senator Charles E. Schumer of New York, we conducted an evaluation
of the Occupational Safety and Health Administration’s (OSHA) handling of immigrant
deaths in the workplace. Specifically, Senator Schumer asked that the evaluation answer
the following questions.

           1. How does OSHA examine immigrant workplace deaths?

           2. What resources does OSHA allocate to investigating these
              deaths?

           3. What resources does OSHA use to enforce violations of
              workplace rules in industries that primarily employ immigrants?

           4. How can OSHA prevent more immigrant workplace deaths from
              occurring?

RESULTS

1. How Does OSHA Examine Immigrant Workplace Deaths?

OSHA’s inspection priorities, reporting requirements, and fatality investigations do not
distinguish between immigrant1 and non-immigrant workers. Federal regulations require
that all employers report workplace fatalities to OSHA within 8 hours. Employers are
not required to report whether the fatality involves an immigrant or non-English-speaking
employee. If the fatality involves both an employee and a work-related exposure, OSHA
will investigate the events and determine whether violations of OSHA’s safety and health
standards contributed to the accident. According to OSHA management, the Agency
does employ strategies to address immigrant-related issues during fatality investigations.
However, many of the Compliance Safety and Health Officers (CSHOs) we interviewed
noted that when a fatality involves non-English-speaking employees, language barriers
created problems.




1
  We interpreted “immigrant” to refer to non-English speakers; however, we used the
term foreign-born workers when discussing Bureau of Labor Statistics (BLS) data,
because that is how BLS categorizes its data.


                                            iii
2. What Resources Does OSHA Allocate to Investigating Immigrant Workplace
   Deaths?

Prior to our study, OSHA was not tracking immigrant versus non-immigrant fatalities. In
addition, OSHA did not budget separate resources for investigating immigrant fatalities.
Therefore, OSHA was unable to provide the data needed to determine resources allocated
to immigrant fatalities. During the course of our evaluation, OSHA issued a memorandum
that explained procedures for collecting data about workers’ ethnicity and language
capabilities. According to OSHA, this data will be used to help the agency determine
whether there is a link between language/cultural barriers and employee fatalities, and use
this information to better target resources.

3. What Resources Does OSHA Use to Enforce Violations of Workplace
   Rules in Industries that Primarily Employ Immigrants?

Because OSHA does not specifically target industries that primarily employ immigrants,
it was unable to provide the information needed to determine the resources allocated to
those industries. According to the Bureau of Labor Statistics (BLS), the largest number
of fatalities to foreign-born workers occurs in construction, where OSHA conducts the
majority of its inspections. The second highest industry for foreign-born worker fatalities
is retail trade. According to BLS, retail trades have one of the highest rates of workplace
fatalities due to workplace violence. However, with very limited exceptions, the local
authorities, not OSHA, investigate workplace fatalities caused by violence, regardless of
whether they involve immigrants.

4. How Can OSHA Prevent More Immigrant Workplace Deaths from Occurring?

While OSHA has begun a number of initiatives, including forming a special executive
task force to assess the agency’s ongoing Hispanic outreach efforts, aimed at preventing
immigrant workplace fatalities, we identified three areas – training, outreach, and
penalties – where more can be done.

Training employees to perform their jobs correctly and safely is an important part of
preventing workplace fatalities. OSHA’s regulations contain training provisions that
require employers to provide an appropriate amount and type of training for employees
based on the job the employee is performing. However, OSHA’s training provisions do
not address the different languages and literacy levels of immigrant workers.

Further, we found that OSHA is not consistently evaluating its outreach efforts and has
not developed a comprehensive strategy for reaching all non-English-speaking
employees, including undocumented immigrants. OSHA has begun translating
documents into different languages, primarily Spanish. According to OSHA, although
regional offices translate documents based on their knowledge of their regions’ needs,
OSHA does not have a systematic process for determining which languages and what
literacy levels documents need to be translated into.



                                            iv
Finally, we are concerned that current penalty options available to OSHA may not serve
as an effective deterrent to employers who have a willful disregard for employees’ safety
and health. Our concern is based on our examination of (1) recent workplace fatalities
resulting from safety violations of OSHA regulations, (2) results of a prior OIG audit
regarding egregious cases, (3) California’s implementation of the OSH Act, and (4) the
low number of cases referred to and prosecuted by the U.S. Attorney’s Office.

RECOMMENDATIONS

As a result of our evaluation, we make the following recommendations to improve
OSHA’s handling of immigrant workplace fatality investigations and help prevent
workplace fatalities.

       1. Ensure that OSHA’s compliance staff has sufficient second-language
          capability to communicate with non-English-speaking workers. This may be
          accomplished through language training of existing staff and/or through the
          hiring of bilingual staff as vacancies occur.

       2. Issue an Interpretation Letter clarifying that OSHA’s training provisions
          require employers to provide training in a manner that employees understand
          taking into account different languages and literacy levels.

       3. Ensure that outreach efforts to immigrants are consistently evaluated to
          determine which are most effective.

       4. Develop a comprehensive strategy to reach all immigrants, including
          undocumented immigrants. In that regard, we suggest that OSHA analyze the
          data that CSHO’s have collected since April 2002, on immigrant fatalities and
          catastrophes to help identify specific issues that need to be addressed.

       5. Continue to translate essential current and future OSHA documents and
          develop a systematic process for determining which languages and what
          literacy levels are needed. Analyzing the information that CSHO’s collect on
          immigrant fatalities and catastrophes (April 26, 2002 memorandum, Interim
          Procedures for Fatality and Catastrophe Investigations) could contribute to
          determining which languages are needed.

       6. Evaluate the effectiveness of penalties in deterring willful violations that
          result in death or serious physical harm. Specifically, OSHA should examine
          the deterrent effect of raising civil and criminal fines, increasing the criminal
          charges under Section 17(e) of the OSH Act from a misdemeanor to a felony,
          expanding Section 17(e) to cover employers whose willful violations result in
          serious physical harm, and allowing prosecutors to seek restitution for victims.




                                            v
AGENCY RESPONSE AND OIG CONCLUSION

    In response to OIG’s official draft report, OSHA generally agreed with our
    findings and recommendations. As a result of corrective actions planned or
    already taken by OSHA, we consider the first five recommendations to be
    resolved. These recommendations will be closed pending OIG’s receipt and
    review of appropriate documentation of corrective actions as specified in the
    report. OSHA’s response to recommendation 6 stated OSHA would consider the
    recommendation after discussing it with other federal agencies and stakeholders.
    OIG will postpone making a decision regarding resolution of the recommendation
    until OSHA reports back to the OIG on its deliberations with other federal
    agencies and stakeholders and its conclusions about the OIG recommendation.

    We have incorporated excerpts from OSHA’s response in the Recommendations
    section of this report. OSHA made additional comments on the report’s findings.
    We have incorporated some of these comments into the report. OSHA’s complete
    response is included as an Appendix.




                                       vi
                                        BACKGROUND

The Department of Labor’s (DOL) Occupational Safety and Health Administration
(OSHA) was created in 1970 to carry out the Occupational Safety and Health Act (OSH
Act), which declared a national policy of ensuring safe and healthful working conditions
for employees. Either Federal or state governments administer the OSH Act, which
covers more than 100 million working men and women and their 6-½ million employers.

Section 18 of the OSH Act encourages states to develop and operate their own job safety
and health programs. OSHA approves and monitors state plans and provides up to 50
percent of an approved plan’s operating costs. For OSHA to approve a state’s plan, the
state must set and enforce job safety and health standards that are at least as effective as
comparable Federal standards. Federal OSHA administers the OSH Act in states that do
not have a state plan. Currently, 23 states and jurisdictions are operating complete state
plans (covering both the private sector and state and local government employees), and
three states cover public employees only.

OSHA develops and enforces workplace safety and health standards, educates employers
and employees about workplace hazards, and conducts inspections of employers to assess
compliance with applicable safety and health standards.

OSHA has stated it is focusing on three strategies to carry out its mission: 1) strong, fair,
and effective enforcement; 2) outreach, education, and compliance assistance; and
3) partnerships and voluntary programs. The agency also provides consultation, training
and information services for employers and employees.

According to OSHA, there is evidence of significant improvements in safety and health
conditions in America since implementation of the OSH Act: workplace fatalities have
been cut in half, and occupational injury and illness rates declined by 40 percent. At the
same time, U.S. employment has nearly doubled from 56 million workers at 3.5 million
worksites to 111 million workers at 7 million sites. In the last decade, the overall
injury/illness incidence rate dropped by 31 percent, and the number of fatal workplace
injuries declined from 6,588 in 1994 to 5,900 in 2001. However, according to the Bureau
of Labor Statistics (BLS), the number of immigrant workers killed on the job in the
United States reached a record high in 2000.

In July 2001, Newsday published a series of articles profiling immigrant fatalities in the
workplace.2 The articles stated that between 1994 and 1999, over 500 immigrant
fatalities in New York State were attributed to work-related incidents, with more than
4,200 work-related immigrant fatalities occurring nationally. Newsday alleged that
OSHA did not devote sufficient resources to investigate worker deaths in low-wage and
non-union industries, and that at least 874 immigrant worker deaths nationwide during a
6-year period were never reviewed by OSHA inspectors, including 202 incidents in New
York State.

2
    Thomas Maier, “Series: Death on the Job,” Newsday, 22-26 July 2001.


                                                    1
The articles referenced BLS data. In tracking fatality information, BLS uses the term
“foreign-born” workers, using country of origin information obtained from death
certificates. “Foreign-born” workers include all those who were born in other countries.
BLS does not track whether the deceased was in the country legally, how long the
immigrant had been in the United States, or if he/she was a non-English speaker.

On several occasions, the Secretary of Labor has expressed her concern over the increase
in immigrant work-related fatalities, and her commitment to reducing fatalities, injuries,
and illnesses among immigrant workers. For example, in a February 2003 speech, the
Secretary announced her request of a $13 million increase for OSHA, targeting some of
that money to improve safety protections for Hispanic workers, who are experiencing
higher-than-average fatality and injury rates. In August 2001, the Secretary requested
that OSHA establish a Hispanic Task Force to evaluate the effectiveness of its programs,
assess workplace needs, solicit input from stakeholders and adopt programs to address
emerging issues related to Hispanic/Latino and immigrant workers. In response, OSHA
developed a Task Force that is composed of national and regional OSHA staff. It meets
regularly to determine what additional activities are needed to improve the training,
education and information used to reach Hispanic/Latino workers, their families, and
their employers, and improve the safety and health of their workplaces.

Information on the Hispanic Task Force, as well as additional examples of outreach and
training, are outlined in OSHA’s report to the Senate Appropriations Committee entitled
Workplace Fatalities and Injuries Among Hispanic/Latino and Immigrant Workers
(September 16, 2002). In addition, OSHA is working with the National Institute for
Occupational Safety and Health, the Mexican Consulates in a variety of cities, as well as
community and faith-based organizations. OSHA is also pursuing strategic partnerships
and alliances with Hispanic/Latino groups, such as the Hispanic Chamber of Commerce.


.




                                            2
                      PURPOSE, SCOPE AND METHODOLOGY

PURPOSE

The purpose of our evaluation was to address the specific questions raised by Senator
Schumer, relative to immigrant fatalities in the workplace, as follows:

   1. How does OSHA examine immigrant workplace deaths?

   2. What resources does OSHA allocate to investigating these deaths?

   3. What resources does OSHA use to enforce violations of workplace rules
      in industries that primarily employ immigrants?

   4. How can OSHA prevent more immigrant workplace deaths from
      occurring?



SCOPE AND METHODOLOGY

As part of our evaluation, we interviewed Federal OSHA headquarters’ staff and OSHA
field staff in New York, Florida, and Texas. We also interviewed California’s Division
of Occupational Safety and Health’s headquarters and field staff. California is a state-
plan state. We selected New York, Florida, Texas, and California, because, according to
BLS data, these states had the highest number of foreign-born occupational fatalities in
2000: New York (91), Florida (91), Texas (115), and California (195). We conducted
phone interviews with OSHA Regional Directors, Area Directors and Compliance Safety
and Health Officers (CSHOs) in each of these states.

Also, we conducted fieldwork in New York City, where we interviewed staff from
community groups such as the New York Committee for Occupational Safety and Health;
the Union of Needletrades, Industrial and Textile Employees; the New York Department
of Buildings; the Building Trades Employees Association; the Employment Standards
Administration’s Wage and Hour Division; and OSHA. We were not able to review
OSHA case files in New York because the Manhattan office’s case files were destroyed
in the World Trade Center attacks on September 11, 2001.

In addition to interviews, we reviewed numerous documents, including the OSH Act of
1970 and pertinent regulations, OSHA budget justifications, OSHA manuals and
directives, state statutes, and other pertinent material.

We reviewed BLS data on fatal occupational injuries of foreign-born workers from 1994
to 2000. The data were categorized by state and industry. We also examined OSHA


                                            3
budget information from FY 1999 to 2003 and fatality and enforcement statistics
covering 1997 to 2001. The OSHA statistics we reviewed included the number of
programmed, unprogrammed, and fatality inspections by region and by state. BLS
collects demographic data and the circumstances of the fatal event, but does not report
the names of deceased workers. Therefore, we were unable to compare the BLS data
concerning fatal occupational injuries of foreign-born workers with OSHA fatality
investigation data to identify which fatalities OSHA did not investigate and why.

We conducted our evaluation in accordance with the Quality Standards for Inspections
published by the President’s Council on Integrity and Efficiency.




                                            4
                                       RESULTS


1. How Does OSHA Examine Immigrant Workplace Deaths?

The OSH Act treats all employees equally. We found that OSHA’s inspection priorities,
reporting requirements, and fatality investigations do not distinguish between immigrant
and non-immigrant workers. However, according to OSHA, the Agency does employ
strategies to address immigrant-related issues, such as language barriers, when
investigating a workplace fatality.

A. Inspections

OSHA inspections of a worksite may be either programmed or unprogrammed.
Programmed, or planned, inspections are those that are conducted based on objective or
neutral criteria such as number of deaths, injury and illness rates, or employee exposure
to toxic substances. Unprogrammed inspections are those conducted in response to
alleged hazardous working conditions at a specific worksite, such as reports of imminent
dangers, fatalities/catastrophes, complaints and referrals.

Based on the nature of an alleged hazard, unprogrammed inspections are normally
conducted prior to programmed inspections. According to OSHA, the agency prioritizes
its inspections in the following order:

       1. reports of imminent dangers,
       2. fatalities or accidents serious enough to send three or more workers to the
          hospital,
       3. employee complaints and referrals from other government agencies, and
       4. targeted inspections (see Finding C).

While employee complaints are considered a high priority, OSHA representatives and
community groups both noted that immigrants, particularly undocumented immigrants,
are unlikely to complain about workplace hazards. Immigrants’ reluctance to complain
may be attributed to fear of being deported, fear of the government, or a lack of
knowledge about OSHA.




                                            5
B. Reporting Requirements

Federal regulations require all employers to report the death of any employee from a
work-related incident within 8 hours. Regulations do not require employers to inform
OSHA whether the victim is an immigrant or a non-English speaker when reporting a
fatality. Community groups we interviewed expressed concern that the current monetary
penalty for failure to report a workplace death to OSHA is not a sufficient deterrent for
some employers. If an employer willfully fails to report a workplace death, OSHA can
fine the employer up to $70,000. Many of the CSHOs we interviewed stated that the
penalties for not reporting a fatality are strong enough, and that the problem is not that
employers knowingly fail to report, but that many employers are not aware that they are
required to report.

Community groups in New York also expressed concern that OSHA does not have
formal agreements with hospitals and medical examiners for reporting workplace
fatalities. However, many of the CSHOs we interviewed described strong relationships
with the local authorities. Through Emergency Medical Technicians, local police, or
police scanners, OSHA often learns about workplace fatalities before an employer has an
opportunity to report the incident. In addition, on February 1, 2002, OSHA issued a
memorandum to its Regional Administrators instructing them to direct their Area
Directors to contact Federal, state, and local law enforcement and health authorities,
requesting that these agencies and groups assist OSHA in obtaining information on non-
English-speaking worker fatalities that might not otherwise be reported to OSHA.

C. Fatality Investigations

For OSHA to investigate a workplace fatality, the incident must involve the death of an
employee and a work-related exposure. For example, OSHA will only investigate a
traffic accident or a homicide if it involves workplace hazards. The highway patrol or the
local police usually serve as the primary investigators for those fatalities. OSHA also
does not investigate if the fatality involves a person who is self-employed or an
independent contractor.

Once a workplace fatality is reported, a
CSHO, preferably with expertise in the                Percentage of Fatality &
industry involved in the accident, is            Catastophe Investigations Initiated
selected by the Area Director to                    Within One Working Day of
conduct the inspection as quickly as                  Notification (unaudited)
possible. In Fiscal Year (FY) 1999,
OSHA established a performance goal                  100   87       92      95

of initiating fatality and catastrophe                75
investigations within 1 working day of                50
notification. As Figure 1 shows,                      25
OSHA has moved closer to meeting                       0
that performance goal each year. We
recognize that meeting this
                                                                         Figure 1

                                            6
performance goal often depends on available resources in OSHA’s Area Offices, and the
amount of travel time required in getting to the accident scene.

The Newsday articles alleged that OSHA did not devote sufficient resources to
investigating worker deaths in low-wage and non-union industries, and that at least 874
immigrant worker deaths nationwide during a 6-year period were never reviewed by
OSHA inspectors, including 202 incidents in New York State. Because BLS does not
collect employee names when tallying fatal occupational injuries, we were unable to
compare BLS data on workplace fatalities to foreign-born workers with OSHA’s data on
fatality investigations to identify the cases referred to in the Newsday articles as never
reviewed. Therefore, we did not verify the data contained in the Newsday articles.
However, OSHA was able to provide information on 10 of the 14 immigrant fatalities
specifically mentioned in the articles. OSHA was not able to research four of the deaths
mentioned because the articles did not provide dates of the accidents, accident
descriptions, and the employers or facilities where the accidents occurred.

Of the 10 fatalities that OSHA was able to research, OSHA investigated 5. Of the five
deaths that OSHA did not investigate, four involved workplace violence and one
involved an individual who was self-employed. None were investigated by OSHA
because OSHA does not investigate a workplace death unless it involves an employee
and a work-related hazard. In congressional testimony, the author of the Newsday
articles noted that, “one of every three immigrants killed on the job died as a result of
homicide or some other form of workplace violence. . . .”3

If a fatality does involve a workplace hazard and an employee, OSHA’s policy is to
investigate the events in an effort to determine whether violations of OSHA safety and
health standards contributed to the death. When an investigator finds that an employer
has violated one of OSHA’s standards or the General Duty Clause of the OSH Act
(5(a)(i)), OSHA procedures state that a citation shall be issued. Each citation is in
writing and includes a description of the violation, including a reference to the OSH Act,
standard, rule, regulation or order alleged to be violated. The citation also stipulates a
reasonable time for abatement of the violation.

Many CSHOs we interviewed about fatality investigations stated that language barriers
do create problems in communicating with non-English speakers. We found that the
Area Offices we contacted employ some bilingual staff and try to recruit bilingual
CSHOs when they have vacancies. They also arrange for translation services in the event
a bilingual employee is not available or translation assistance is needed for a language in
which no one in the office is fluent. However, fatality investigations frequently involve
technical terms that are not easily translated, especially by someone who is not familiar
with OSHA regulations.




3
  Testimony of Thomas Maier, Reporter for Newsday, before the Committee on Health, Education, Labor
and Pensions, February 27, 2002.


                                                 7
2. What Resources Does OSHA Allocate to Investigating Immigrant Deaths?

We found that OSHA did not track immigrant/non-immigrant status when investigating
fatalities. Therefore, OSHA was unable to provide the information needed to determine
what investigations involved immigrants over a specified period of time and what
resources were allocated to those investigations.

During the course of our evaluation, OSHA issued a memorandum to its Regional
Administrators, subject—“Interim Procedure for Fatality and Catastrophe
Investigations.” In this April 26, 2002, memorandum, OSHA instructs CSHOs to
complete a special form when a fatality or catastrophe involves an immigrant worker
and/or Hispanic worker and/or a language barrier. The form includes questions such as
“How well did the victim speak English?” and “What was the primary language of the
supervisor(s) at the worksite?” OSHA believes that capturing this information will
enable it to examine trends and risk factors to better target the agency’s resources. This
information will also enable OSHA to calculate exactly how many fatality investigations
involved an immigrant worker.

While we were unable to determine what resources OSHA allocates to investigating
immigrant deaths because the required information was not tracked, we were able to
obtain information on OSHA’s overall budget allocation and staffing.

A. OSHA Budget Dedicated to Federal Enforcement Activities

OSHA’s investigations are funded through the “Federal Enforcement” portion of the
agency’s budget, which funds all of OSHA’s enforcement activities. While OSHA has
discretion to determine which strategies to use and the level of resources to allocate to its
programs, the OSH Act places emphasis on setting and enforcing standards as a means to
bring about a workplace free from safety and health hazards. Standards development,
enforcement, cooperative programs, and compliance assistance are the tools used by
OSHA to fulfill its mission.

Federal enforcement activity reflects the compliance authority vested in OSHA by the
Congress through the enforcement of Federal workplace standards under the OSH Act.
Compliance is obtained, in part, by the physical inspection of plants and facilities,
encouraging cooperation between employers and employees to ensure safe and healthy
workplaces, and OSHA’s compliance assistance programs.

OSHA’s allocation of resources is shown in Figure 2. Of the $443 million budgeted for
OSHA in FY 2002, approximately 37 percent (approximately $162 million) went to
Federal enforcement activities; about 20 percent (approximately $90 million) went to
state program activities (OSHA funds up to half the cost of state-operated safety and
health programs); and about 4 percent (approximately $16 million) went to standards
setting. Federal compliance assistance, state consultation grants and training grants
combined for about 27 percent (approximately $121 million) of the budget.



                                              8
                                              Allocation of
                                          OSHA Budget Activities
                                           FY 2002 (unaudited)
                    6%     2% 4%
               3%                                                       Standard Setting-4%

                                                                        Federal Enforcement-37%
       11%
                                                                        State Programs-20%

                                                                        Technical Support-5%
                                                      37%
                                                                        Federal Compliance
                                                                        Assistance-13%
    13%                                                                 State Consultation Grants-
                                                                        11%
                                                                        Training Grants-3%

                                                                        Safety & Health Statistics-6%
           5%                                                           Executive Direction-2%

                            20%
                                                                                                Figure 2
--------------------------------------------------------------------------------------------------------------------------------
B. OSHA Budget Versus FTEs

Funding for OSHA’s Federal enforcement activity has steadily increased over the past 5
years, from a low of approximately $128.8 million in FY 1998 to a high of $161.9
million in FY 2002. During this same period, Full Time Equivalents (FTEs) dedicated to
OSHA Federal enforcement steadily increased, from a low of 1,603 in FY 1998 to a high
of 1,683 in FY 2001, but have declined over the last 2 years.

In FY 2002, OSHA’s appropriation for Federal enforcement activities increased from
$151.8 million to $161.9 million, and an FTE reduction of 38. Fiscal Year 2003’s
appropriation for Federal enforcement is $164 million, with an additional reduction of 33
FTEs (see Figure 3).




                                                               9
                  OSHA's Funding for Federal Enforcement Activities
                   versus FTEs in Federal Enforcement (unaudited)


        FY 1998                                                         $128,886,000
                     1,603

        FY 1999                                                           $133,704,000
                     1,610

        FY 2000                                                                 $141,000,000
                     1,624

        FY 2001                                                                    $151,836,000
                     1,683

       FY 2002                                                                        $161,998,000
                     1,645

       FY 2003                                                                         $164,039,000
                     1,612
                                                  FUNDING
                                                                                           Figure 3

------------------------------------------------------------------------------------------------------------
C. Inspections

In Death On the Job: The Toll on Neglect, 10th Edition (April 2001), the AFL-CIO
calculated that at OSHA’s FY 2001 staffing levels, it would take OSHA 109 years to
inspect each workplace under its jurisdiction one time.

OSHA statistics reveal that between 1997-2001, OSHA averaged 35,529 inspections
(programmed and unprogrammed) per year (see Figure 4). We were unable to determine
which of these inspections involved employers who hire immigrant workers or non-
English-speaking employees, since OSHA is not required to collect such information.

                                  Federal OSHA Inspections
                                   1997 - 2001 (unaudited)
                     40000
                     35000
                     30000
                     25000
                     20000
                     15000
                     10000
                      5000
                         0
                                1997       1998       1999      2000       2001
                                    Programmed      Unprogrammed        Total


                                                                                Figure 4


                                                    10
Summary

At the time of our evaluation, OSHA was not tracking immigrant fatalities. In addition,
OSHA does not budget separate resources for investigating fatalities involving
immigrants. As a result, OSHA was unable to provide the information needed to
determine what resources it expends investigating these deaths. However, in April 2002,
OSHA modified its OSHA-170 form (used to collect detailed information about
fatalities) to include several questions relating to ethnicity and language capabilities.
OSHA believes this information will enable it to better target the agency’s resources in an
effort to prevent future injuries and fatalities involving immigrants. This information will
also enable OSHA to calculate how many fatalities involve immigrants.




                                            11
 3. What Resources Does OSHA Use To Enforce Violations of
    Workplace Rules in Industries that Primarily Employ Immigrants?

Because OSHA categorizes industries by lost work day injury and illness rates or
experience, and not by characteristics of employees, we were unable to identify what
resources OSHA allocates to enforcing violations of workplace rules in industries that
primarily employ immigrants. Therefore, we could not determine whether those specific
resources were inadequate or mismanaged. OSHA’s policy is to target “high-hazard”
industries—those with the highest number of accidents, injuries and fatalities. According
to BLS, the highest number of fatalities to foreign-born workers occurs in construction,
which is where OSHA conducts the majority of its inspections.

OSHA has two methods for targeting inspections: one method for general industry and
maritime, and another for construction. For targeting general industries, OSHA uses
BLS’ annual illness/injury survey to identify the most dangerous industries. OSHA then
surveys over 80,000 general industry employers in the most hazardous industries in order
to identify specific workplaces with higher than average lost workday injury and illness
rates. The high injury worksites are then targeted for inspections. For construction
targeting, OSHA relies on the F.W. Dodge Report to develop a list of construction
projects to inspect. However, the Dodge report does not provide adequate information on
smaller construction worksites. The start and completion dates are often unreliable for
small construction sites. OSHA relies on Local Emphasis Programs (LEPs) to target
smaller and high-hazard industries. LEPs allow area offices to target industries based on
local knowledge. They usually focus on either a specific industry, such as the garment
industry, or a specific hazard, such as conditions that may result in falls.




                                           12
  Figures 5 and 6 compare BLS data on fatal occupational injuries to foreign-born workers
  by industry, and OSHA’s programmed inspections by industry.4

        Fatal Occupational Injuries to                                    Federal OSHA Programmed
      Foreign-Born Workers by Industry                                      Inspections by Industry
             CY 2000 (unaudited)                                              FY 2000 (unaudited)
                                  7%                                            2%
Constuction-25%                                                        15%
                          10%                      25%
                                                                                                         Construction-
Manufacturing-10%                                                                                        64%
Agriculture-13%                                                                                          Manufacturing-
                                                                                                         19%
Transportation-17%                                                                                       Other-15%
                      18%                                        19%
Retail Trade-18%                                        10%
                                                                                                64%      Maritime-2%
Services-10%

Other-7%                                          13%
                                17%


                                       Figure 5                                      Figure 6

  According to BLS, the largest number of fatalities of foreign-born workers occurs in the
  construction industry, where OSHA conducts the majority of its inspections. The second
  highest industry for fatalities to foreign-born workers is retail trade. OSHA considers
  some retail trade industries low-hazard, including automotive dealers, apparel and
  accessory stores, and restaurants. To be considered low-hazard, the industry must have
  an average lost workday case injury rate at or below 75 percent of the comparable private
  sector average for a 3-year designated measurement period. Consistent with
  Appropriation Committee Report requirements, low-hazard industries are exempt from
  certain record-keeping requirements (although they still have to report fatalities) and are
  not targeted for programmed safety inspections.

  Although retail establishments have low illness and injury rates, according to BLS they
  have one of the highest rates of workplace fatalities due to workplace violence. While
  OSHA has not promulgated a safety standard for workplace violence, it has emphasized
  workplace violence prevention programs through adoption of the agency’s voluntary
  guidelines.5 The agency also has interpreted workplace violence issues to fall under the
  General Duty Clause, Section 5(a)(1) of the OSH Act. The clause does not require
  employers to assume the role of law enforcement authorities, but the employer is required
  to maintain a workplace free of recognized hazards likely to cause death or serious
  physical harm, providing there is a feasible means of abatement. However, with very
  limited exceptions, the local authorities, not OSHA, investigate workplace fatalities
  caused by violence, regardless of whether they involve immigrants.



  4
    The BLS data represent a calendar year, while the OSHA data are calculated by fiscal year.
  5
    Voluntary guidelines have been issued for the most violence-prone industries: taxi and livery drivers,
  late-night retail establishments, health care and social service workers, and community workers.


                                                         13
Summary

OSHA’s policy is to target industries based on lost work day injury and illness rates, and
not by employee characteristics. Therefore, we were unable to determine what resources
OSHA allocates towards enforcing workplace violations in industries that primarily
employ immigrants. However, by comparing BLS data on workplace fatalities to
foreign-born workers with OSHA’s inspection data, we were able to determine that
OSHA conducts the majority of its inspections in the construction industry, where,
according to BLS, the highest number of foreign-born worker fatalities occurs.




                                            14
4. How Can OSHA Prevent More Immigrant Workplace Deaths from Occurring?


An important aspect of preventing workplace fatalities is safety training for employees.
OSHA’s regulations contain required training provisions for employers. However,
OSHA’s training provisions do not address the different languages and literacy levels of
workers.

On September 16, 2002, OSHA issued a report to the U.S. Senate Appropriations
Committee entitled Workplace Fatalities and Injuries Among Hispanic/Latino and
Immigrant Worker. In the report, OSHA discussed the limitations of OSHA and BLS
fatality statistics and provided information on its compliance assistance, outreach,
training, and new initiatives in an effort to assist employers and workers from many
different backgrounds to implement workplace safety and health management systems.
However, OSHA has not evaluated its outreach efforts or translated all essential OSHA
documents into several different languages.

A. Training Provisions in OSHA Regulations

During our interviews with CSHOs, we asked for suggestions on how employers could
make their workplaces safer for immigrants and non-English-speaking workers. A
majority of those interviewed stated that employers need to provide better training for
employees.

Currently, OSHA’s regulations vary in their consideration of immigrant workers’
language and literacy skills in establishing training provisions. In fact, OSHA’s
Bloodborne Pathogen standard is the only provision that requires that “material
appropriate in content and vocabulary to educational level, literacy, and language of
employees shall be used” in training employees (29 CFR 1910.1030(g)(2)(vi)). In
contrast, the standards covering safety training and education for the construction
industry (29 CFR 1926.21) do not require employers to consider employees’ literacy
levels or language skills.

According to OSHA, the Agency has long interpreted the employer’s requirement to
provide employee training to mean providing training in a manner that employees
understand.

B. Outreach

As noted in Result 2, OSHA implemented interim procedures to track immigrant
fatalities in order to determine whether there is a link between language/cultural barriers
and employee fatalities. This information should also assist OSHA in targeting its
outreach efforts. In order to have effective outreach, OSHA must know the audience they
are trying to reach. Immigrant populations vary greatly in their education levels and trust
of government officials.


                                            15
As previously noted, OSHA currently has numerous new compliance assistance efforts
under way to assist immigrant workers. For example, OSHA has formed a special
executive task force to assess the agency’s ongoing Hispanic outreach efforts and
determine what further activities are needed. The task force was instrumental in the
creation of a Spanish-language website and a national clearinghouse for training
programs in Spanish. According to OSHA, on Worker Memorial Day of 2003, OSHA
released two public service announcements to over 650 Spanish radio stations. Outreach
is also being done in individual regions. For example, in New Jersey, OSHA works with
the Puerto Rican Congress by attending its annual conference and providing information
about OSHA.

In addition to its current efforts, OSHA can do more, such as identifying and partnering
with community groups that serve immigrant workers. For example, the OSHA
regulations give employees and employees’ representatives the right to request an
inspection if they believe that a violation of safety and health standards or an imminent
danger exists. OSHA’s Region 2, which includes New York, interprets the term
“representative of employees” in 29 CFR 1903.11 to include community groups such as
the New York Committee for Occupational Safety and Health (NYCOSH). This allows
NYCOSH to file a complaint and request an inspection on behalf of an employee.

As noted in Result 2., in April 2002, OSHA instructed CSHOs to complete a special form
when a fatality or catastrophe involves an immigrant worker and/or Hispanic worker
and/or a language barrier. OSHA could use this information to help identify specific
issues and immigrant communities that need to be addressed.

Additionally, OSHA should expand its coordination with other agencies within the
Department of Labor and the Federal Government to reach immigrants, regardless of
their legal status. For example, OSHA has a Memorandum of Understanding with the
Employment Standards Administration’s Wage and Hour Division, which enforces the
Fair Labor Standards Act. As part of its enforcement activities, Wage and Hour inspects
sweatshops. Wage and Hour inspectors receive training from OSHA in order to
recognize safety and health violations and make referrals to OSHA if a violation is
serious. OSHA should explore similar partnerships with the Employment and Training
Administration (ETA). For example, ETA could provide information about OSHA and
its standards in various languages at its One-Stop Centers, and/or distribute information
through its Migrant and Seasonal Farmworker Program. OSHA could also partner with
the Department of Education to provide information about OSHA through its Adult and
Family Literacy programs in an effort to inform the immigrant community about OSHA’s
mission.

OSHA has begun translating documents into different languages, primarily Spanish.
According to OSHA, although regional offices translate documents based on their
knowledge of their regions’ needs, OSHA does not have a systematic process for
determining which languages and what literacy levels documents need to be translated
into. As mentioned earlier, OSHA has been collecting information on immigrant


                                            16
fatalities and catastrophes since April 2002. We believe this information could help
OSHA identify what languages and which literacy levels documents need to be translated
into.

C. Penalties

As part of our efforts to determine how OSHA can prevent more immigrant workplace
deaths from occurring, we found that OSHA needs to evaluate existing deterrents for
willful violations of safety and health standards. The OSH Act provides both civil and
criminal penalties. According to OSHA, the penalty structure of the Act is intended to
deter employers from violating safety and health rules in their workplaces. These
deterrents are directed to all employers with potential for OSHA inspections. In addition
to civil penalties, the OSH Act also permits criminal prosecution of employers who
willfully violate OSHA standards when that violation results in the death of an employee.

Penalties need to be severe enough to serve as an effective deterrent. Based on our
examination of fatalities resulting from OSHA safety violations, the results of a prior
OIG audit regarding egregious cases, California’s implementation of the OSH Act, and
the low number of cases referred by OSHA and prosecuted by the U.S. Attorney’s Office,
we are concerned that enforcement efforts do not seem to serve as an effective deterrent
to those employers who have a complete disregard for employees’ safety and health.

Civil Penalties

Under the OSH Act, OSHA can assess monetary penalties for OSHA violations.
Violations are categorized as either serious or other-than-serious based on the severity of
the violation or a repeated violation. Both serious and other-than-serious violations carry
a maximum penalty of $7,000. A willful violation or a repeated violation potentially
carries a much higher penalty, with a minimum of $5,000 and a maximum of $70,000.
According to OSHA, a willful violation exists where the evidence shows either an
intentional disregard for the requirements of the Act or plain indifference to employee
safety. Where the penalty for a willful violation falls within this range depends on
whether the violation is serious or other-than-serious.

The gravity of the violation is the primary consideration in calculating the basic penalty.
Once the basic penalty is established, OSHA can adjust penalties based on the size of the
company, the good faith of the employer, and the employer’s history of violations. Up to
a 60 percent reduction is permitted for company size; up to 25 percent for good faith; and
up to 10 percent for history. In FY 2001, OSHA conducted 1,080 fatality inspections,
with an average penalty of $7,988 per inspection. Of the 2,794 citations issued for those
inspections, 46 (1.5 percent) were for willful violations, with an average penalty of
$37,896.

Beginning in 1986, OSHA instituted a policy to more vigorously pursue those employers
who flagrantly violate occupational safety and health standards or regulations. In a
limited number of cases, informally referred to as “egregious” cases, OSHA uses its


                                            17
existing penalty calculation guidelines. However, rather than grouping or combining
violations for penalty purposes, as is standard practice for non-egregious cases, each
instance of noncompliance is considered separately. By considering each violation
separately, OSHA significantly increases the total amount of penalties. A 1992 OIG
audit6 examined substantial reductions in OSHA’s proposed egregious case penalties.
The OIG found that OSHA did reduce proposed penalties during settlement negotiations
with employers. However, in exchange for reduced penalties, employers frequently
agreed to take abatement actions beyond the violations discovered.

If an employer chooses not to settle with OSHA, it can contest the citation, abatement
date, and proposed penalties to the Occupational Safety and Health Review Commission
(OSHRC), an independent agency established under the OSH Act, which utilizes
Administrative Law Judges (ALJs) to hold hearings on these contests and issue
appropriate orders. Either party can further appeal the ALJ’s decision to the OSHRC.
The OSHRC has the authority to affirm, modify or vacate OSHA’s citations or proposed
penalties. In its 1992 audit, the OIG found that, when OSHA’s egregious cases were
appealed, ALJs reduced 57 percent of the willful citations to serious or other than serious,
and vacated another 36 percent of willful violations. In other words, in egregious cases,
ALJs only affirmed 6 percent of the willful violations cited by OSHA. We did not
review the current percentage of penalties vacated, modified or affirmed by the OSHRC
as part of this evaluation.

Criminal Penalties

Section 17(e) of the OSH Act provides criminal penalties for an employer who is
convicted of having willfully violated an OSHA standard, rule, or order when that
violation causes the death of an employee. Only employers who willfully violate OSHA
standards can be prosecuted under Section 17(e). OSHA must prove that the employer
knew about the violation and did not make any reasonable effort to correct it, resulting in
the death of an employee. Section 17(e) does not provide criminal penalties for
employers whose willful violations result in serious physical harm to an employee, nor
does it provide the ability to seek restitution from violators.

When originally passed, the OSH Act called for a $10,000 fine, imprisonment up to 6
months, or both. The Sentencing Reform Act of 1984 raised the fine for misdemeanors
resulting in death to $250,000 for an individual and $500,000 for an organization. The
maximum prison sentence remains at 6 months. In 1991 and 1992, the Department of
Labor’s Inspector General testified before Congress in support of increasing OSHA’s
criminal penalties. In 1994, the Secretary of Labor testified in support of changing the
charge under Section 17(e) from a misdemeanor to a felony, and expanding 17(e) to
cover “serious bodily injury.”7


6
  Review of How OSHA Settled and Followed Up on Its Egregious Cases, Report No. 05-92-008-10-001
(May 31, 1992)
7
  Statement of Robert B. Reich before the Committee on Labor and Human Resources, United States
Senate, February 9, 1994.


                                                18
Two recent cases involving immigrant fatalities in New York City, as well as information
on state-plan state criminal penalties for willful violations, illustrate the potential
shortcomings of Section 17(e).


(a)    Recent New York Cases

       (i) The first incident occurred on April 30, 2001. While demolishing a
           building, a steel beam crushed a worker when a cement floor partially
           collapsed. In March 2001, OSHA inspected the demolition site and cited the
           general contractor for not having a written engineer’s survey. In April, OSHA
           held an informal conference with the general contractor and the subcontractor
           who was hired to complete the demolition after the first OSHA inspection.
           OSHA explained the violation and the means of abatement to both parties.
           Later that month, the general contractor, based on information provided by the
           subcontractor, informed OSHA that the survey was conducted. However,
           OSHA learned later that the subcontractor never conducted the survey.
           According to OSHA, if he had conducted the survey, the subcontractor would
           have known that the equipment being used significantly exceeded the weight
           capacity of the floor. With this knowledge, he could have prevented the
           accident.

           The employer was charged under Section 17(e) of the OSH Act (29 U.S.C.
           666(e)). The subcontractor pled guilty to willfully violating OSHA standards
           resulting in the death of an employee. He agreed to settle his OSHA
           violations for $100,000. On June 12, 2002, he was sentenced to 4 months in
           jail and 1 year of supervised release. The judge could not order restitution
           under Section 17(e) of the OSH Act. To receive any financial compensation,
           the family will have to sue the employer in civil court. It should also be noted
           that if the employee had not died, but was seriously injured, the employer
           could not have been prosecuted under the OSH Act even though his actions
           would have been just as egregious. OSHA defines “serious physical harm” as
           “an impairment of the body in which part of the body is made functionally
           useless or is substantially reduced in efficiency on or off the job. Such
           impairment may be permanent or temporary, chronic or acute.”

       (ii) The second incident occurred on November 23, 1999. Fourteen day laborers
            fell three stories into a basement when the floor they were working on
            collapsed. One worker died by drowning in cement. OSHA determined that
            the collapse was caused by improper construction practices. The owner of the
            construction company had a series of building accidents and collapses in the
            same area.

           Instead of prosecuting the employer under Section 17(e) of the OSH Act, the
           U.S. Attorney’s Office prosecuted the employer for false statements made
           during a 1996 OSHA inspection. By prosecuting the employer for false


                                            19
         statements (18 U.S.C. 1001) instead of for willfully violating OSHA standards
         resulting in the death of an employee (OSH Act Section 17(e)), the U.S.
         Attorney had the flexibility to request restitution. Under a plea agreement, the
         employer was ordered to pay $1,000,000 in restitution to the victims of the
         collapse and $100,000 to settle OSHA violations, and was sentenced to 3
         years of probation.

(b)   State-Plan States

      State-plan states develop and operate their own occupational safety and health
      programs. In order to operate its own plan, a state must show that its job safety
      and health program is at least as effective as OSHA’s. Of the 23 state-plan states,
      eight (Arizona, California, Iowa, Michigan, Puerto Rico, Tennessee, Utah, and
      Vermont) established penalties greater than the 6-month sentences prescribed by
      the Federal OSH Act.

      For example, California increased prison sentences under the California Labor
      Code in 1999. Under California Labor Law section 6425(a), an employer
      convicted of a misdemeanor can face a county jail term not to exceed 1 year, a
      fine not to exceed $100,000, or both. If convicted of a felony, an employer can
      face 16 months or 2 to 3 years in a state prison, a fine of $250,000, or both. If the
      defendant is a corporation, the fine imposed can be up to $1.5 million (California
      Labor Code Section 6424). In California, an employer can be prosecuted for both
      a willful violation that causes the death of an employee, as in the OSH Act, and
      for a willful violation that results in permanent or prolonged impairment.
      California law also differs from the Federal statute with regard to who can be
      prosecuted. Under California law, not only can an employer be prosecuted, but
      also an individual who has direction, management, control or custody of a place
      of employment or employee. Since the OSH Act only permits prosecution of the
      “employer,” if an employee works for a corporation, the corporation is considered
      the employer. Additionally, prosecution under the California Labor Code does
      not preclude prosecution under the state manslaughter statute.

      California’s Occupational Safety and Health Administration has referred
      approximately 60 cases to prosecutors for review annually, and approximately
      20–25 criminal complaints have been filed when the charge was a misdemeanor.
      Despite this level of activity, California decided to try to increase the deterrent
      effect by allowing prosecutors to charge an employer with a felony.

      Based on data provided to us by OSHA, the OSHA referred 6 cases to U.S.
      Attorney’s Offices in CY 2000, and 12 cases in CY 2001. Of the six cases OSHA
      referred in CY 2000, the U.S. Attorney’s Office is pursuing five and still
      examining one. Of the 12 cases OSHA referred in CY 2001, the U.S. Attorney’s
      Office is still examining 6, rejected 2, and moved forward on 4.




                                           20
       As part of the Secretary of Labor’s 1994 congressional testimony concerning
       criminal penalties for willful violations of OSHA standards, the Department
       supported a provision that would expand the definition of “employer” to include
       individuals who have the power to bring about compliance with the OSH Act,
       including the power to remove an employee from exposure to a hazard.


Summary

Training employees to perform their jobs correctly and safely is an important part of
preventing workplace fatalities. For the most part, OSHA’s training provisions do not
address the different languages and literacy levels of immigrant workers.

While OSHA has begun a number of initiatives aimed at preventing immigrant workplace
fatalities, OSHA is not consistently evaluating its outreach efforts, and has not developed
a comprehensive strategy for reaching all non-English-speaking employees, including
undocumented immigrants.

Finally, we are concerned that current penalty options available to OSHA may not serve
as an effective deterrent to employers who have a willful disregard for employees’ safety
and health.




                                            21
                                RECOMMENDATIONS

In answering Senator Schumer’s question – how can OSHA prevent more workplace
immigrant fatalities from occurring? – we developed several recommendations involving
training, outreach and penalties. We recommend OSHA:

1. Ensure that its compliance staff has sufficient second language capability to
   communicate with non-English-speaking workers. This may be accomplished
   through language training of existing staff and/or through the hiring of bilingual staff
   as vacancies occur.

       OSHA’s Response

       “OSHA agrees with this recommendation that it would benefit the agency to have
       more Compliance Safety and Health Officers (CSHOs) who are fluent in a
       language other than English. However, we believe it is far more effective to
       continue to hire employees who are already bilingual, than to teach current
       employees a new language. Toward that end, the agency is actively recruiting
       Spanish-speaking employees to add to the 180 employees the agency currently
       has with such skills in both its enforcement and compliance assistance positions.
       OSHA also has staff fluent in other languages such as Vietnamese.

       In addition to hiring employees who are fluent in more than one language, OSHA
       is exploring options to use translation tools such as on-the-spot translation
       services that can be accessed by a cell phone that has speaker-phone
       capabilities.”

       OIG’s Conclusion

       We concur with OSHA’s proposed corrective actions and consider this
       recommendation to be resolved. This recommendation will be closed pending
       receipt and review of documentation showing the status of the agency’s progress
       in recruiting multi-lingual employees, as well as the use of various translation
       tools.


2. Issue an Interpretation Letter clarifying that OSHA’s training provisions require
   employers to provide training in a manner that employees understand taking into
   account different languages and literacy levels.

       OSHA’s Response

       “OSHA agrees with the intent of this recommendation from the OIG that training
       be given in a language and literacy level understood by the worker. However, the
       agency is not convinced that the issuance of an interpretation letter is necessary

                                            22
       to clarify training provisions. In applying the training provisions in OSHA’s
       standards in a compliance context, the agency has long interpreted the employer's
       requirement to provide training to mean, "provide in a manner that employees
       understand." Employers are responsible for training their employees so that the
       employee understands how to do the job safely. Consider a multilingual
       employee population in which there are several languages spoken such as
       Mandarin, Spanish and Polish. Asking an employer to prepare training in each
       language is unreasonably burdensome. The employer could use several other
       options to ensure the employees understand the training. For example, the
       employer could use a "train-the-trainer" program in which bilingual employees
       are trained as safety and health trainers. They, in turn, train the other employees
       using their native language. Another option is the use of translators or the use of
       pictograms.

       OSHA appreciates the fact that conducting training in an employee's language is
       not the only way to accomplish the tasks. The issue is to ensure that the employee
       understands how to perform his/her work tasks safely. Through the Susan
       Harwood Grant Program, OSHA offers funds to nonprofit organizations to train
       workers and employers to recognize, avoid, and prevent safety and health hazards
       in their workplaces. Sensitive to this issue of employee understanding, some of
       these grantees are exploring ways to train employees utilizing pictures, music and
       videos rather than using specific language.”

       OIG’s Conclusion

       Based on OSHA’s response, we conclude that OSHA has presented an alternative
       that will satisfy the intent of the recommendation. Accordingly, we consider this
       recommendation to be resolved. This recommendation will be closed pending
       receipt and review of information documenting what actions OSHA has taken to
       ensure that employers are using effective methods to provide training to their
       employees on how to perform their work tasks safely.

3. Ensure that outreach efforts to immigrants are consistently evaluated to determine
   what is most effective.

       OSHA’s Response

       “OSHA concurs with this recommendation. The agency firmly believes in
       evaluating its programs to determine effectiveness. These evaluations will
       include the effectiveness of agency outreach efforts, including those directed to
       workers with limited English proficiency.”

       OIG’s Conclusion

       We concur with OSHA’s proposed corrective action and consider this
       recommendation to be resolved. This recommendation will be closed pending


                                            23
       receipt and review of documentation on the results of evaluations the agency has
       conducted on the effectiveness of OSHA’s outreach efforts to workers with
       limited English proficiency.

4. Develop a comprehensive strategy to reach all immigrants, including undocumented
   immigrants. In that regard, we suggest that OSHA analyze the data that CSHO’s
   have collected since April 2002, on immigrant fatalities and catastrophes to help
   identify specific issues that need to be addressed.

       OSHA’s Response

       Recommendation 4: “OSHA not only concurs with this recommendation, but
       believes it has already complied with it in developing a comprehensive strategy to
       reach workers for whom English is not necessarily a first language. OSHA has
       already begun outreach and training programs for all immigrant workers
       including the formation of Strategic Partnerships and Alliances and working with
       community groups, churches and advocates for immigrant workers. OSHA is also
       working with other federal agencies such as NIOSH and DOL agencies such as
       ESA. The agency has a Hispanic Task Force, Hispanic Coordinators in each of
       the regions, and has a National Internal Clearinghouse of materials and activities
       so that OSHA staff can share ideas and resources. The agency intends to expand
       these efforts on all these fronts consistent with the agency’s own Strategic
       Management Plan strategy of improving “OSHA’s intelligence gathering,
       analytical, targeting and performance measurement capabilities.” To accomplish
       this, OSHA intends to use the data collected from the OSHA 170 as well as
       information gathered from the BLS reports.”

       OIG’s Conclusion

       As a result of corrective actions planned or already taken by OSHA, we consider
       this recommendation to be resolved. This recommendation will be closed
       pending receipt and review of documentation summarizing the results of the
       analysis of data collected and reported by CSHOs (the OSHA 170) on immigrant
       fatalities/catastrophes since April 2002, as well as what steps the agency has taken
       to expand its efforts to further enhance its comprehensive strategy to reach all
       workers with limited English proficiency.

5. Continue to translate essential current and future OSHA documents, and develop a
   systematic process for determining which languages and what literacy levels are
   needed. Analyzing the information that CSHO’s collect on immigrant fatalities and
   catastrophes (April 26, 2002 memorandum, Interim Procedures for Fatality and
   Catastrophe Investigations) could contribute to determining which languages are
   needed.




                                           24
       OSHA’s Response

       “OSHA concurs with this recommendation. The agency agrees that it is
       important to have appropriate and accurate translations of materials for
       immigrant workers as demonstrated by our current efforts. OSHA has translated
       publications, developed safety and health training programs, formed alliances
       with Hispanic and Latino organizations, and partnered with community and faith-
       based organizations to provide safety and health training and awareness
       programs. In addition, OSHA is working with the Mexican government in a
       mutually beneficial training initiative. In return for use of OSHA’s safety and
       health training curricula, the Mexican government is committed to translating our
       training materials into Spanish and providing the agency with those translations.

       It should be noted, however, that some of these documents, such as OSHA
       regulations and standards, are very carefully worded to hold particular legal
       meaning. As OSHA moves forward in translating its documents into other
       languages, it is important that we proceed cautiously to ensure that legal
       meanings are not changed through the translation process. OSHA is committed to
       continue to translate documents as resources are available.”

       OIG’s Conclusion

       We concur with OSHA’s proposed corrective actions and consider this
       recommendation to be resolved. This recommendation will be closed pending
       receipt and review of documentation reporting the status of OSHA’s progress in
       translating agency documents into other languages.

6. Evaluate the impact of its deterrence efforts on willful violations that result in death
   or serious physical harm. Specifically, OSHA should examine the deterrent effect of
   raising civil and criminal fines, increasing Federal charges under Section 17(e) of the
   OSH Act from a misdemeanor to a felony, expanding Section 17(e) to cover
   employers whose willful violations result in serious physical harm, and allowing
   prosecutors to seek restitution for victims.

       OSHA’s Response

       “OSHA is uncertain about the practicality of this recommendation. While the
       agency is committed to evaluating the effectiveness of its programs and has
       committed to doing so in its Strategic Management Plan, two cautions should be
       considered with regard to measuring the specific items of this recommendation.
       First, the number of fatalities that result from willful violations is very limited. In
       2001, there were 40 such fatalities identified in Federal states; in 2002, there
       were 59, and in 2003, only 28. OSHA does not believe that a statistically
       significant evaluation of the deterrent effect would be possible from such limited
       information. Second, it is exceedingly difficult to actually measure the deterrent
       effect. It is not clear how OSHA would separate the specific deterrent effect of


                                             25
willful violations for one employer from that of the general deterrent effect of
citations and penalties for many employers or even per industry sector.

The primary mandate of the OSH Act is to assure safe and healthful working
conditions for every working man and woman. Congress provided a wide range
of authorities to accomplish this mandate, only one of which is the enforcement
authority. Imposition of high civil penalties and/or restitution awards would
therefore not be OSHA's only means of interacting with employers. The statutory
penalty scheme embodied in section 17 of the Act does not address extraordinary
compensatory or punitive measures to be levied in fatality cases. However, as
noted in the OIG report, OSHA can and does impose substantial monetary
penalties on employers to effect deterrence, and when the gravity of the violation
is very high, the egregious enforcement policy is available to OSHA for employers
who flagrantly violate OSHA standards.

Section 11(b) authorizes the Secretary of Labor to obtain court orders compelling
recalcitrant employers, who have willfully and repeatedly violated the Act, to
comply with final orders of the Occupational Safety and Health Review
Commission. An employer who violates such an order can be found in contempt
of court. Potential sanctions include the daily failure-to-abate penalties provided
in the Act (including prospective daily penalties), recovery of the Secretary's costs
of bringing the action, incarceration of an individual corporate officer who flouts
the court's order, and any other sanction necessary to secure compliance. See
Reich v. Sea Sprite Boat Co., 50 F.3d 413 (7th Cir. 1995; assessing penalty of
$1,452,000 for past contempt and $7,000 for each day of future noncompliance.)

The New York cases cited in the OIG Report focus on the inability of families of
decedents from workplace accidents, or workers suffering serious bodily injury, to
receive any financial restitution under section 17 of the Act. The Report lauds a
particular case where the U.S. Attorney successfully prosecuted an employer for
making false statements under 18 U.S.C. 1001, rather than using section 17, to
obtain $1,000,000 in restitution for the victims of the collapse. The prosecutor's
"flexibility" to request restitution in that case (and therefore the perceived more
favorable result) is misleading. In criminally referred OSHA cases, if there is
evidence of false or misleading statements a prosecutor is most likely to first
invoke the more harsh felony charges and penalties of 18 U.S.C. 1001 against
employers, rather than pursue the lesser misdemeanor fines of section 17(e). That
flexibility, however, will always be contingent on the particular facts of the case.

OSHA will consider this recommendation after discussing it with other federal
agencies and stakeholders as to the impact of changes to the criminal penalty
provisions of the OSH Act.”




                                     26
OIG’s Conclusion

OSHA stated it would consider this recommendation after discussions with other
federal agencies and stakeholders as to the impact of changes to the criminal
penalty provisions of the OSH Act. We think this input will be valuable as OSHA
further considers the recommendation.

The OIG will postpone making a decision regarding resolution of the
recommendation until OSHA reports back to the OIG on its deliberations with
other federal agencies and stakeholders and its conclusions about the OIG
recommendation.




                                  27
                         GLOSSARY




Catastrophe              Accident resulting in inpatient hospitalization of
                         three or more workers.


F.W. Dodge Report        List of publicly bid construction projects compiled
                         by the McGraw-Hill Construction Information
                         Group.

Imminent Danger          Any condition or practice in any place of
                         employment which could reasonably be expected to
                         cause death or serious physical harm immediately
                         or before the imminence of such danger can be
                         eliminated through the enforcement procedures
                         otherwise provided by the OSH Act.

Local Emphasis Program   Inspection programs that target specific industries
                         or hazards.

State-Plan State         A state or jurisdiction that develops and operates its
                         own job safety and health program. OSHA
                         approves and monitors state plans and provides up
                         to 50 percent of the funding.




                               28
  APPENDIX

OSHA’s Response




      29
30
31
32
33
34
35
36
37
